<html>
<title> - MARITIME TRANSPORTATION IN THE ARCTIC: THE U.S. ROLE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          MARITIME TRANSPORTATION IN THE ARCTIC: THE U.S. ROLE

=======================================================================

                                (115-46)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                             
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-055 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                            
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
GARRET GRAVES, Louisiana             RICK LARSEN, Washington
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
JASON LEWIS, Minnesota, Vice Chair   PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
                                
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Admiral Charles W. Ray, Vice Commandant, U.S. Coast Guard:

    Testimony....................................................     3
    Prepared statement...........................................    32
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    40
David Kennedy, Senior Advisor for the Arctic Region, National 
  Oceanic and Atmospheric Administration:

    Testimony....................................................     3
    Prepared statement...........................................    45
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    52
Heather A. Conley, Senior Vice President for Europe, Eurasia, and 
  the Arctic, Center for Strategic and International Studies:

    Testimony....................................................     3
    Prepared statement...........................................    57
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    64
Lawson Brigham, Ph.D., Faculty, International Arctic Research 
  Center, University of Alaska Fairbanks, and Fellow, Center for 
  Arctic Study and Policy, U.S. Coast Guard Academy:

    Testimony....................................................     3
    Prepared statement...........................................    72
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    78
Molly McCammon, Executive Director, Alaska Ocean Observing 
  System:

    Testimony....................................................     3
    Prepared statement...........................................    84
    Responses to questions for the record from Hon. John 
      Garamendi of California....................................    91
Rear Admiral David W. Titley, U.S. Navy (Ret.), Professor of 
  Practice in Meteorology, Department of Meteorology and 
  Atmospheric Science, Pennsylvania State University:

    Testimony....................................................     3
    Prepared statement...........................................    97
    Questions for the record for Mr. Titley from Hon. John 
      Garamendi of California....................................   103

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. John Garamendi of California................................    28

                       SUBMISSIONS FOR THE RECORD

Report entitled ``Maritime Futures: The Arctic and the Bering 
  Strait Region,'' a report of the CSIS Europe Program, November 
  2017, submitted by co-author Heather A. Conley, Senior Vice 
  President for Europe, Eurasia, and the Arctic, Center for 
  Strategic and International Studies \1\

----------
\1\ This 49-page report can be found online at https://csis-
prod.s3.amazonaws.com/s3fs-public/publication/
171027_Conley_MaritimeFutures_Web.pdf.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
          MARITIME TRANSPORTATION IN THE ARCTIC: THE U.S. ROLE

                              ----------                              


                         THURSDAY, JUNE 7, 2018

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11 a.m., in room 
2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. Good morning. The subcommittee will come to 
order. Thanks for being here. Today, the subcommittee will hear 
testimony on maritime transportation in the Arctic, and the 
need for the United States infrastructure to facilitate safe 
and efficient transportation.
    For the first time in recorded history, the Arctic is 
becoming navigable for large portions each year. Vessel transit 
through the Bering Strait has increased almost 200 percent from 
2008 to 2017. It is critical that we understand current traffic 
flows and the steps that need to be taken to ensure that both 
vessels and the environment are properly protected. I am proud 
to say that we have finally gained the necessary momentum to 
recapitalize the Nation's heavy icebreaker fleet, which is 
critical to provide an ensured access to the region.
    However, while icebreakers provide important capabilities, 
there are many other issues that must be addressed to ensure a 
safe and efficient Arctic navigation. Despite United States 
vessels patrolling Arctic waters for nearly 150 years, the 
National Oceanic and Atmospheric Administration, NOAA, predicts 
that it could take up to 25 years to survey a fraction of the 
navigationally significant waters in the U.S. Arctic using 
modern hydrographic methods. This really is the last frontier, 
the portion of our Nation's waters about which we still have 
much to learn.
    Additional infrastructure and operational challenges to 
maritime transportation in the U.S. Arctic include: limited 
satellite coverage and architecture to support voice and data 
communications, the lack of deep-draft port accommodating ships 
with a draft of up to 35 feet, unpredictability and flow 
patterns of icebergs in shipping lanes, and the lack of channel 
marking buoys and other floating visual aids, which are not 
possible due to continuously moving ice sheets.
    The United States is not alone in our efforts to facilitate 
safe commerce in the Arctic. We are part of the Arctic Council, 
along with other Arctic nations, like Canada, Russia, and the 
Nordic countries. Working together in this consensus-based, 
intergovernmental forum allows us to promote environmental, 
social, and economic aspects of sustainable development in the 
Arctic. The Council is critical to successfully implementing 
the International Code for Ships Operating in Polar Waters, the 
Polar Code.
    The potential in the Arctic is hard to fully quantify. For 
more efficient shipping routes to mineral wealth, and natural 
beauty to scientific unknowns, the Arctic is a great resource, 
one for which we must begin making plans today to ensure we can 
maximize its potential, while also protecting its unique 
character and importance.
    I thank our witnesses for being here today, and I look 
forward to hearing their thoughts on the issues. I will now 
yield to Ranking Member Garamendi. You are recognized.
    Mr. Garamendi. Mr. Chairman, thank you very much for 
calling this hearing, and for the extraordinary array of 
witnesses who have depth and knowledge about what is going on 
in the Arctic. I am going to try to be brief, but I am not sure 
I can accomplish that. There is no doubt that the Arctic is 
warming, and the climate is creating new opportunities and 
significant challenges for the Federal Government, especially 
for the U.S. Coast Guard.
    The retreat of sea ice, the opening of previously 
impassable Arctic waters, and the insatiable demands of a 
growing global human population will create tremendous 
competition and pressure among the Arctic and non-Arctic 
nations to access and develop the untapped natural resources of 
this nearly pristine region above the Arctic Circle.
    As our country's sole military, maritime law enforcement 
Service, inevitably, it will fall upon the Coast Guard to 
protect the U.S. sovereign interests in the Arctic. Moreover, 
when called upon, I am confident the Coast Guard will do the 
best it can with the assets and resources available at its 
disposal. There is no reason to think otherwise, certainly that 
is the history of the Coast Guard.
    What does raise concern, however, is whether the Coast 
Guard, or for that matter, the entire Federal Government, is 
adequately prepared for the inevitable. From what I have read 
in today's testimony, it would appear that the Federal 
Government is not, neither is the Coast Guard. If anything, the 
Federal Government appears to have been far too complacent, if 
not negligent, in establishing a solid foothold for the bona 
fide Federal presence along what will be a vast and mostly 
inhospitable fourth U.S. coast.
    The challenges cannot and should not be underestimated, nor 
the days of empty bromides and recalcitrant comments by many 
simply have to end. The Coast Guard prides itself on being 
semper paratus, or always ready. At present, however, that 
motto appears to be more aspirational than operational reality.
    Consequently, the hearing provides an opportunity to 
establish a baseline of information that we can return to and 
reassess in future hearings. We need answers to several 
important questions, such as: Is the Coast Guard's 
recapitalization of its polar icebreaker fleet on schedule? And 
for that matter, what about the Coast Guard's other capital 
needs to ensure mission performance in the Arctic, such as 
ports and facilities?
    Has the Coast Guard begun the process of revising its 
concept of operations in the Arctic to address all mission 
needs, especially the Maritime Domain Awareness, search and 
rescue, and oil spill response? Moreover, are the other Federal 
agencies, particularly NOAA and the U.S. Army Corps of 
Engineers, aggressively moving ahead with plans to ensure the 
availability of deepwater ports, accurate navigational tools, 
and telecommunications in the Arctic?
    These are just a few of the many questions that we have. 
Let me conclude by saying that we cannot afford to ignore what 
is unfolding in the Arctic. As a maritime power and Arctic 
State, the United States must embrace this challenge, for if 
not, rest assured, other nation states, friend and foe alike, 
will fill the vacuum. I don't see Mr. Graves here yet. He held 
a very important meeting yesterday, and I want to thank him for 
putting that meeting together.
    The result of that meeting is that the U.S. Navy, 
specifically, is not prepared to deal in what is really an 
ocean, although often covered by ice. Mr. Chairman, I yield 
back.
    Mr. Hunter. I thank the ranking member. Today we are going 
to hear from Admiral Charles Ray, who we welcome today in his 
new position as the four-star Vice Commandant of the Coast 
Guard. Welcome, Admiral Ray. And my favorite flag officer 
pilot, I would say--pilot. We look forward to working with you 
and Commandant Schultz over the next 4 years to support the 
Coast Guard and its servicemembers.
    Also on the panel we have Mr. David Kennedy, Senior Arctic 
Advisor at the National Oceanic and Atmospheric Administration; 
Ms. Heather Conley, senior vice president for Europe, Eurasia, 
and the Arctic, Center for Strategic and International Studies; 
Dr. Lawson Brigham, faculty and distinguished fellow at the 
University of Alaska Fairbanks; Ms. Molly McCammon, executive 
director at the Alaska Ocean Observing System; and Rear Admiral 
David Titley, professor of practice in meteorology at 
Pennsylvania State University.
    Admiral Ray, it is an honor to have you here. 
Congratulations again, and you are now recognized for your 
statement.

  TESTIMONY OF ADMIRAL CHARLES W. RAY, VICE COMMANDANT, U.S. 
   COAST GUARD; DAVID KENNEDY, SENIOR ADVISOR FOR THE ARCTIC 
   REGION, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION; 
 HEATHER A. CONLEY, SENIOR VICE PRESIDENT FOR EUROPE, EURASIA, 
AND THE ARCTIC, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES; 
 LAWSON BRIGHAM, PH.D., FACULTY, INTERNATIONAL ARCTIC RESEARCH 
CENTER, UNIVERSITY OF ALASKA FAIRBANKS, AND FELLOW, CENTER FOR 
   ARCTIC STUDY AND POLICY, U.S. COAST GUARD ACADEMY; MOLLY 
 MCCAMMON, EXECUTIVE DIRECTOR, ALASKA OCEAN OBSERVING SYSTEM; 
 AND REAR ADMIRAL DAVID W. TITLEY, U.S. NAVY (RET.), PROFESSOR 
   OF PRACTICE IN METEOROLOGY, DEPARTMENT OF METEOROLOGY AND 
       ATMOSPHERIC SCIENCE, PENNSYLVANIA STATE UNIVERSITY

    Admiral Ray. Thank you, Mr. Chairman. Good morning, 
Chairman Hunter, Ranking Member Garamendi, distinguished 
members of the subcommittee, I appreciate the opportunity to 
testify before you today, and ask that my written statement be 
entered into the record.
    Mr. Hunter. Without objection.
    Admiral Ray. On behalf of Commandant Admiral Schultz, and 
the entire Coast Guard, I would like to express my gratitude to 
this committee's support for your Coast Guard. The Coast Guard 
is the Nation's visible maritime presence in the Arctic. We 
have been operating there since 1867. And as you all know, it 
is a region with a tremendous volume of resources.
    The estimates are that the oil and gas resources north of 
the Arctic Circle total approximately 13 percent of the world's 
undiscovered oil, and 30 percent of the undiscovered gas. Over 
the past decade, the Arctic has become increasingly accessible. 
It is evolving in the actions and intentions of Arctic and non-
Arctic nations which are shaping the security environment.
    Our two nearest peer competitors, Russia and China, have 
both declared the Arctic a strategic priority, and they 
continue to aggressively develop the capability, capacity, and 
expertise to exert influence and seize opportunities in the 
region. With your continued support, I am pleased to report 
that the Coast Guard is making progress, operationally and 
strategically, to achieve year-round access in the Arctic.
    I would like to highlight just a couple of those successes. 
At that operational level, we conduct a yearly America's Arctic 
Shield Operation. In 2017, we deployed ships and aviation 
assets to the Arctic. In just a 4-month period, we completed 28 
search and rescue cases, saving 20 lives, conducted joint ice-
diving exercises with the Navy, hosted an oil spill seminar, 
visited 41 remote villages, and trained over 4,000 citizens in 
boating and water safety, and participated in exercises along 
with DoD, other Federal, State, local, travel, and 
international partners.
    At the strategic level, as the chairman mentioned, for the 
United States to lead in the Arctic, we must maintain a 
physical presence to exert national security and protect our 
sovereign rights. For the Coast Guard, the foundation of this 
presence is U.S. icebreakers, whose purpose is to provide 
assured year-round access to operate in the polar regions.
    To this end, reconstituting our Nation's icebreakers is one 
of the Service's highest priorities. And we are the closest we 
have been in 40 years to realizing the first step in 
recapitalizing the heavy polar icebreaker fleet. And I thank 
this committee specifically for your efforts in that.
    As human activity in the Arctic continues to increase, the 
Coast Guard must maintain annual access to protect our citizens 
who sail and live on these waters and protect our sovereign 
interest. In 2017, there were three cruise ships with over 
2,400 passengers sailed just off the north shore of Alaska's 
North Slope in waters where mass rescue and pollution response 
efforts were challenging.
    This last September, the Chinese icebreaker, Xue Long, 
closed a close aboard to Nome, Alaska, and requested a medevac 
for one of their people. So we boarded the Xue Long and took 
their crewmember off there and transferred him for treatment. 
The point is, we are not alone up there in the approaches to 
our Nation.
    Finally, we continue to work collaboratively with 
international bodies like the International Maritime 
Organization and Arctic Coast Guard Forum to shape governance 
and mitigate risk and assure our Nation's influence.
    In conclusion, with the continued support of the 
administration, this committee, and the Congress as a whole, 
the Coast Guard will continue to lead across the national and 
international landscape to protect our interests.
    I thank you all for your unwavering support, and for your 
efforts to ensure that Coast Guard women and men have all the 
tools they need to safely do their operations. I appreciate the 
opportunity to testify and look forward your questions.
    Mr. Hunter. Thank you, Admiral. Next, we have Mr. David 
Kennedy, Senior Arctic Advisor of the National Oceanic and 
Atmospheric Administration, NOAA.
    Mr. Kennedy. Good morning, Chairman Hunter, Ranking Member 
Garamendi, and members of the subcommittee. Thank you for 
inviting me to testify today on our work to support safe and 
efficient maritime transportation in the Arctic. The Arctic is 
a vast, extreme, complicated, rapidly changing place. The 
issues and challenges there are multilayered, and require 
extensive collaboration. To this end, NOAA cooperates with 
academic, regional, State and indigenous stakeholders. We also 
rely on the support of our Federal partners in the Coast Guard, 
NASA, Navy, Interior, Energy, and others.
    The dedication of over half the U.S. Coast Guard cutter 
Healy's recent schedule to NOAA operations is an example of 
that collaboration. For our part, NOAA was glad to support the 
Coast Guard and their Arctic Port Access Route Study, and the 
Department of Homeland Security as they develop their Arctic 
strategy. Since less than 3 percent of the Arctic Circle lies 
within Alaska, international cooperation is also a key to 
success in the Arctic.
    NOAA participates in the Arctic Council and its working 
group, such as the Protection of the Arctic Marine Environment 
Group and the Arctic Monitoring and Assessment Program. NOAA is 
also a member of the Sustaining Arctic Observing Networks and 
the Arctic Regional Hydrographic Commission.
    NOAA's Arctic work began in 1870 when the Coast and 
Geodetic Survey schooner Yukon began surveying Alaskan waters. 
Today, NOAA is working to increase its presence in the Arctic. 
I will touch broadly on NOAA's services, but highlight our 
navigation services to support transportation and 
infrastructure.
    NOAA supports transportation and infrastructure in the 
Arctic with marine navigation products, weather forecasts, oil 
spill hazard assessments, preparedness and response, and 
environmental stewardship. These efforts support Arctic 
residents by improving their decisions, health, economic 
growth, and cultural vibrancy. NOAA is also working to increase 
our Arctic security, emergency response, and environmental 
prediction capabilities.
    Alaska Native coastal communities rely on subsistence 
hunting for their nutritional, cultural, mental, and spiritual 
wellness. NOAA is working with the Arctic Waterways Safety 
Committee to ensure research vessel traffic is minimally 
disruptive to subsistence hunting. Vessel traffic through the 
Bering Strait is predicted to increase five-fold by 2025, 
raising the risk of oil and other hazardous material spills.
    NOAA supports the Coast Guard response by providing oil 
spill modeling, tools, and data management. Last summer, NOAA 
participated in a mutual aid deployment exercise on Alaska's 
North Slope, and with interagency partners, provided oil spill 
response training for North Slope communities. NOAA's 
navigation, observation, and positioning services, especially 
nautical charts, are essential to moving goods and people 
safely and efficiently in the Arctic.
    Nautical charts are built upon core NOAA competencies and 
responsibilities: positioning, tides and water level data, 
shoreline mapping, and hydrographic services. NOAA provides 
accurate positioning through the National Spatial Reference 
System. To increase the accuracy in the system, NOAA is 
collecting airborne and gravity data initially planned to reach 
95 percent coverage of Alaska.
    Along the coast, NOAA's national water level observation 
network provides long-term observations to inform the decisions 
of increasingly vulnerable Arctic communities. In cooperation 
with the Alaska Ocean Observing System, which you are going to 
hear from later, NOAA is developing portable low-cost systems 
to fill water level gaps in the Arctic.
    Last year, NOAA delivered over 700 miles of Arctic 
shoreline data. This data maintains charts and enables mariners 
to pinpoint their locations relative to the coast. Less than 5 
percent of the U.S. maritime Arctic has been surveyed to modern 
international navigation standards. Over the past 3 years, NOAA 
and contract partners acquired 1,500 square nautical miles of 
Arctic surveyed data.
    In 2018, we have seven projects in Alaska and the Arctic 
covering 2,066 square nautical miles. To continue our progress, 
NOAA will keep asking our stakeholders to inform our survey 
priorities. Our Federal advisory committee, the Hydrographic 
Services Review Panel, will meet in Juneau this August for just 
that purpose.
    Thank you again for the opportunity to testify today, and I 
appreciate the subcommittee's time and attention, and look 
forward to your questions. Thank you.
    Mr. Hunter. Thank you, Mr. Kennedy. Ms. Heather Conley is 
now recognized, senior vice president for Europe, Eurasia, and 
the Arctic at the Center for Strategic and International 
Studies. You are recognized.
    Ms. Conley. Mr. Chairman, thank you. Ranking Member 
Garamendi, and distinguished members of the subcommittee, thank 
you for this opportunity to speak to you today. Nearly 8 months 
ago, CSIS completed an extensive research project that examined 
our maritime capability needs in the Bering Strait region, 
which makes this discussion even more timely.
    With your permission, I would like both my written 
statement and this report, entitled ``Maritime Futures: The 
Arctic and the Bering Strait Region,'' to be included in the 
congressional record.
    Mr. Hunter. Without objection.

        [The 49-page report entitled ``Maritime Futures: The Arctic and 
        the Bering Strait Region,'' is available online athttps://csis-
        prod.s3.amazonaws.com/s3fs-public/publication/
        171027_Conley_MaritimeFutures_Web.pdf.]

    Ms. Conley. Thank you. I will just make a few brief points, 
and then cede the remaining time for discussion. Here is the 
bottom line: While trans-Arctic shipping and destination 
shipping may be muted today in the Arctic, we anticipate an 
increase in maritime traffic through the narrow Bering Strait, 
particularly as LNG [liquefied natural gas] carriers from the 
Russian Arctic make their way through the narrow Bering Strait 
to Asian energy markets.
    Transits through the Bering Strait have more than doubled 
over the past decade. These increased transits over time will 
stretch and expose our thinly resourced and outdated 
capabilities until they are simply no longer able to respond to 
a major environmental accident or mass casualty incident.
    It is clear the United States needs a proactive, long-term 
plan to protect the United States coast line in Alaska, patrol 
U.S. territorial waters in the North Pacific, the Bering, 
Chukchi, and Beaufort, as well as enforce our 200-mile 
exclusive economic zone, as well as our maritime demarcation 
border with Russia. These tasks are critical to the future 
prosperity, safety, and national security of the United States.
    The United States Coast Guard is inadequately resourced to 
execute this mission in the Arctic, and we, therefore, are not 
in a position to sufficiently safeguard U.S. territorial 
waters, and the EEZ [exclusive economic zone] when foreign-
flagged vessels traverse the narrow Bering Strait. This is an 
even more pressing issue as Russia and China have both declared 
the Arctic to be an economically and militarily strategic 
region, and their policies both seek influence beyond their 
coast lines to secure their future national interests.
    Both countries are making substantial economic investments 
in the Arctic, while Russia is reasserting itself militarily. 
Simply put, American sovereignty in the Arctic can only be 
ensured by our maritime presence. But what concerns me the most 
is that the United States is placing one very big bet that the 
Arctic will remain of limited strategic value, and that our 
current, mostly seasonal approach, will be sufficient. And 
because Russia and China take such a dramatically different and 
long-term view, Russia and China view the Arctic over the next 
half century, we view it in the next budget cycle. The United 
States must assess our national security and strategic 
implications if Russia and China pursue their strategic 
interests and we do not.
    So here are some of the questions that we need to ask 
ourselves: Could the United States lose access to portions of 
its maritime Arctic in the future? What are the implications if 
America's Arctic resources are exploited and infrastructure is 
constructed by Chinese firms rather than American firms? What 
if, in fact, Russia and China are simply overextending 
themselves economically and militarily in the Arctic? Is it the 
right approach to allow them to do that while the United States 
husbands its resources? Which nation has the Arctic's future 
right?
    If the United States is incorrect about the Arctic, we will 
be placed at a great strategic disadvantage with significant 
military and economic implications for both the North Atlantic 
and the North Pacific. Prudence would suggest the United States 
must ensure an enduring and credible maritime presence in the 
Arctic. America's current posture does not yet meet this 
requirement. Thank you very much.
    Mr. Hunter. Thank you, Ms. Conley. I would like to now 
introduce the former chairman of this committee, the full 
committee, and the ``Dean of the House,'' Mr. Don Young, to 
introduce our next two witnesses.
    Mr. Young. Thank you, Mr. Chairman, I do appreciate that, 
for letting me say words about our Alaskan witnesses. First, we 
have Dr. Brigham here representing the University of Alaska, my 
university. Dr. Brigham has a distinguished career. He served 
in the Coast Guard for 25 years, retiring with the rank of 
captain, having served in command of four Coast Guard cutters, 
including the Polar Star sailing in Alaska, Arctic and 
Antarctic waters.
    Dr. Brigham has participated in over a dozen Arctic and 
Antarctic expeditions. In 2008, when Captain Brigham was the 
signer of the American Geographical Society's Fliers' and 
Explorers' Globe, this signing was in recognition of Polar 
Star's voyages of 1994, becoming the first ship in history to 
the reach the extreme ends of the global ocean, at the North 
Pole and the Ross Sea. Antarctica is the closest navigable 
portion of the South Pole.
    Dr. Brigham's three decades of research have focused on the 
Soviet Russian maritime Arctic issues, which are all 
interesting, Arctic climate change, maritime transportation, 
sea ice remote sensing, Arctic environmental protection.
    Ms. Molly McCammon is the executive director of the Alaska 
Ocean Observing System, which is a coalition of Government, 
academic, and private partners, working to access and integrate 
coastal and ocean data to give users the ability to package the 
information and data into usable products for the stakeholders.
    Ms. McCammon has been involved early in the effort to get 
legislation enacted to support the national and regional ocean 
observing networks, and each year she continues the community's 
efforts to keep supporting Congress on ocean observing systems.
    And I want to welcome both of my Alaskan witnesses, I look 
forward to their testimony, as all the rest of the panel. This 
is an issue which I have a great interest in, so welcome.
    Mr. Hunter. I thank the gentleman from Alaska. And the 
gentleman from Alaska, Dr. Brigham, is recognized to give your 
statement.
    Mr. Brigham. Thank you for that kind introduction, 
Congressman Young. Good morning, Mr. Chairman, and Ranking 
Member Garamendi, and distinguished members of the 
subcommittee. I am honored to testify today before you 
regarding the roles of the United States in Arctic marine 
transportation, and specifically, some very narrow but 
important marine infrastructure requirements.
    I am a researcher at the International Arctic Research 
Center, but also a fellow at the Coast Guard Academy's Center 
for Arctic Study and Policy. No discussion on this topic can be 
made without review of the Arctic Council's Arctic Marine 
Shipping Assessment, which was released, amazingly enough, 9 
years ago, but still has great relevance. The United States was 
a lead country in this effort with Canada and Finland. All the 
eight Arctic States contributed data and information. This 
study could be looked at in three perspectives: a baseline 
assessment, the first historic snapshot of all the traffic in 
the Arctic Ocean; a strategic guide to a host of Arctic 
stakeholders and actors, both Arctic and non-Arctic 
stakeholders and actors; but importantly, a policy document, as 
the 17 recommendations of AMSA, the Arctic Marine Shipping 
Assessment, were vetted, negotiated, and approved by the Arctic 
ministers of the eight Arctic States. The recommendations, the 
17 recommendations I won't list here, but were divided into 
three interrelated themes. Enhancing Arctic marine safety, 
protecting Arctic people and the environment, and most 
importantly, building the Arctic marine infrastructure.
    There is no Arctic marine infrastructure in the Arctic 
today except for that along the coast of Iceland, the northern 
coast of Norway, and northwest Russia. Really, in the rest of 
the place, there is no salvage, SAR, environmental response, 
environmental monitoring--a whole list of infrastructure that 
are required for safe navigation, of course, and protection of 
the environment, but particularly for facilitating efficient 
and safe marine transportation.
    The AMSA report did point out that the changes in the 
Arctic and the future of Arctic marine transportation are 
certainly related to sea ice, greater marine access; 
extraordinary change, profound change in Arctic sea ice, will 
allow longer seasons of navigation. But the priority issue is 
this: It is important that the economic factors of Arctic 
natural resource development, the connection to global markets 
and global commodity prices, are the primary drivers of the 
future of Arctic marine transportation. This can be seen today 
in the Russia north, offshore Norway, and potentially in 
offshore Alaska.
    It is really all about economics. It is about international 
security and global geopolitics, but it is economics driving 
the ``train'' for Arctic marine transportation. There is a 
general lack of infrastructure, as I mentioned. A recent study 
of the Council on Foreign Relations did highlight, the ``Arctic 
Imperatives'' study released last March--March 2017, a number 
of deficiencies of the United States in its Arctic 
infrastructure.
    Particularly one fact was highlighted about data from NOAA 
that only 4.7 percent of the United States maritime Arctic is 
charted to modern international standards, 4.7 percent, maybe 5 
percent now. But nonetheless, we have charts for the whole 
region. I should add that the hydrographer of the United States 
would say, but only 4.7 percent, a low percentage is charted to 
modern international standards.
    This serious gap in infrastructure is related to human 
security, economic, and environmental implications for the 
United States. Let me, in the last minute, list the needs: 
hydrography is the highest priority. Certainly, NOAA's budget 
requires more funding for the marine frontier of Alaska; 
implementation and enforcement of the IMO Polar Code; 
additional funding and support to the Coast Guard to make sure 
that all of the requirements of this seminal governance regime 
are applied by the Coast Guard in U.S. Arctic waters.
    I would specifically mention the Arctic port to be 
developed at Nome in the near term; dredging Nome to 35 feet 
plus; building an outer breakwater dock--breakwater dock to 
allow for the mooring and support of large ships in all 
seasons. This development will provide for the port presence, 
and, essentially, provide the physical presence--maritime 
presence of the United States in its maritime Arctic.
    Icebreaking capacity, of course; Arctic waters monitoring; 
the surveillance of marine traffic; search and rescue and 
environmental response; the Seward Marine Center and the polar 
ship, Sikuliaq, require continued Federal support; and finally, 
communications and aids to navigation.
    Thank you, Mr. Chairman, for the opportunity to testify 
before you today.
    Mr. Hunter. Thank you, Dr. Brigham. Ms. McCammon, you are 
recognized.
    Ms. McCammon. Chairman Hunter, Ranking Member Garamendi, 
Congressman Young, and members of the subcommittee, my name is 
Molly McCammon, and I have been executive director of the 
Alaska Ocean Observing System for the past 15 years, based in 
Anchorage, Alaska. Thank you for you inviting to me 
participate, and I hope my written testimony will be entered 
into the record.
    As part of the national Integrated Ocean Observing System, 
my program is mandated by Congress to work with Federal 
agencies, local and State governments, and private industry to 
facilitate and enhance coastal and ocean observing. I think we 
all know that the Alaska Arctic is a challenging environment 
for obtaining observations, especially in realtime: due to lack 
of power, few roads, often primitive communications. Yet, this 
information is essential to meeting the needs that we find now 
in the Bering Strait region and in the Arctic.
    So to meet these needs, my program, AOOS [Alaska Ocean 
Observing System], is partnering with a host of agencies, the 
University of Alaska, and private industry to help identify and 
fill observing gaps, demonstrate new observing technologies and 
infrastructure and develop data products and applications. We 
can't depend on the old way of doing things any longer.
    These include things like high-frequency radars to measure 
surface currents in realtime, for navigation, search and 
rescue, emergency response. Alaska has three radar sites on the 
North Slope, none in the Bering Strait. Congress added funds 
this past year to allow us to install two new radars in the 
Bering Strait, and those will go in next year.
    X-band sea ice radars. We have one on the North Slope that 
is in regular use, but the equipment is old, needs replacing. 
Wave buoys. How many do we have in the Arctic? Zero. But with 
congressional support this year, we are putting one outside the 
Port of Nome later in July/early August, for the first time, 
that will be done operationally.
    Real-time freeze-up detection buoys. We are trying to keep 
assets in the water as long as possible before freeze-up, and 
we have been piloting the use of these buoys. They show a lot 
of success and could be used throughout the Arctic. Accurate 
water levels are needed for safe navigation, mapping and 
charting, storm surge forecasting, informed emergency response. 
Over our entire west and north coasts, we have four Federal 
tide gauges throughout those entire coasts; more are needed.
    But these don't work everywhere and they are expensive and 
hard to maintain. So we have been working with the State, NOAA, 
and several private companies to test a number of cheaper 
alternatives. Of particular interest is the use of GPS 
reflectometry techniques that have been pioneered by the space 
weather companies that require less power and are easier and 
less expensive to install and maintain.
    The use of AIS--automatic identification system--vessel 
tracking stations. We are expanding those and putting weather 
sensors on those stations so they can have dual purpose, and 
provide local, tailored, wind conditions alongside vessel 
tracking information. There are now eight of these in the 
Arctic with two more planned for this summer.
    We are also using the AIS data to work with the Coast Guard 
and with NOAA to help prioritize hydrographic services, so we 
can really focus on what are the key essential areas that need 
to be surveyed immediately.
    A key element of national security and marine domain 
awareness is an understanding of a changing marine ecosystem. 
So we are working with partners to establish a network of 
state-of-the-art ecosystem moorings, and the use of autonomous 
gliders to observe underwater conditions in near realtime, and 
track marine mammals, especially those that may be threatened 
or endangered, especially near a lot of activity that is 
happening offshore.
    And, lastly, AOOS is now operating a NOAA-certified 
regional data assembly center with web-based analytical and 
visualization tools and products to help the Coast Guard, NOAA, 
and others integrate observing data, and do their jobs better.
    How can Congress help? First, as the Arctic continues to 
become more accessible and receive greater attention and use, 
the United States needs to invest in additional observing 
assets in the region to ensure that we have the marine domain 
awareness to manage that usage, respond to potential 
emergencies, and provide for the Nation's security.
    Second, all the activities I have described here all depend 
on substantial partnerships and leveraging of resources. These 
need to be fostered and enhanced with additional mechanisms for 
the ability to transfer and share funds among Federal agencies 
with the private sector. And, third, many of these activities 
do depend on our integration within the national Integrated 
Ocean Observing System program. H.R. 237, sponsored by 
Congressman Young, would reauthorize that program, and it is 
now before the House Natural Resources Committee, and I urge 
its passage and adequate funding for that program.
    In conclusion, I appreciate the opportunity to speak to you 
today about the United States role of ocean and coastal 
observing in the emerging Arctic, and look forward to answering 
your questions.
    Mr. Hunter. Right on time. Wow, Ms. McCammon, we thank you. 
Go Alaska. All right. Admiral Titley, you are recognized.
    Admiral Titley. Thank you. I feel like although everything 
is being said, not everybody has said it. Thank you, Chairman 
Hunter, Ranking Member Garamendi, and distinguished members of 
the subcommittee for the opportunity to present today. I am 
David Titley, and I currently serve as professor of practice in 
meteorology and professor of international affairs at the 
Pennsylvania State University.
    I had the privilege of serving in the United States Navy 
for 32 years, and retired in 2012 as the Oceanographer and 
Navigator of the Navy, and Director of U.S. Navy Task Force 
Climate Change. I serve in an advisory capacity on numerous 
Arctic and climate-related think tanks, including the Center 
for Climate and Security. Basically, though, I am really just a 
recovering weather forecaster.
    In the Navy, we have a saying: Just give me the bottom line 
upfront, or BLUF. So here is my BLUF for today's hearing. The 
Arctic's physical environment is changing faster than any other 
place on Earth today. Today's Arctic climate continues to warm 
at the rate twice that of the rest of the world. These changes 
in temperature cause the Arctic sea ice to change in two ways: 
It is not only decreasing in extent, but also rapidly thinning.
    These changes combined lead to a much more variable, 
dynamic ice pack that will make maritime transportation more 
tempting, more feasible, and paradoxically more hazardous, due 
to rapidly changing and less predictable conditions.
    Two, our rivals are paying close attention to the changing 
Arctic, even if we are not. The Russians are actively 
monetizing their Northern Sea Route and rebuilding their Arctic 
military capabilities albeit from very low post-Cold War 
levels.
    China declares itself to be a near Arctic State, and 
intends to jointly build a ``Polar Silk Road'' as the northern 
flank in its Belt and Road Initiative. China also continues to 
court the Nordic States and Greenland.
    Three, we need to address the Arctic by taking a ``system 
of systems'' approach. We need to address our security, 
economic, scientific, and social issues in the Arctic, while 
simultaneously understanding the motives and intentions of 
Russia and China, and reassuring our friends and allies.
    In keeping with the topic of today's hearing, I would 
highlight some of the key Arctic shipping issues. The old 
Facebook status said it best, ``It's complicated.'' Although 
the temperatures are warming in the Arctic and the ice is 
melting at unprecedented rates, it can still be very cold. At 
minus 30 degrees, it doesn't matter if it is Celsius or 
Farenheit, it is cold. And it can be foggy in the summer, which 
reduces visibility, and impairs the safety of transportation.
    There is still much work to do charting safe passages and 
routes for the Arctic. If you get in trouble, you may be on 
your own. The current routes available for navigating across 
the Arctic have significant draft limitations for modern 
commercial shipping. And today's business model of the 
container fleet stresses both reliability of delivery date and 
shipping very large number of containers to reduce fixed costs. 
But we should always be aware of the potential for disruptive 
change. The liquefied national gas, or LNG carrier, Christophe 
de Margerie, set a transit speed record for commercial shipping 
across the Northern Sea Route last August.
    Another ship in its class transited the Northern Sea Route 
this past February with no icebreaker assistance. While there 
are good technical reasons to believe these are ``one of'' 
events, many revolutions are not recognized until they are well 
underway.
    So what should we do? Similar to many plans in the 
military, I recommend we take a risk-management approach and 
hedge for the unknown. It is important that we step back and 
consider the obvious. We have never been in a position in the 
modern world where access to an entire ocean opened up within a 
matter of decades.
    We must update our Nation's Arctic strategy in response to 
the changes in our National Security Strategy and National 
Defense Strategy. We should use all our sovereign assets, Navy, 
Coast Guard, and NOAA, to develop a coherent and sustainable 
presence in the Arctic, it will demonstrate long-term 
commitment to our sovereign interests, reassure our allies, and 
send an unmistakable message to our great power rivals.
    I recommend we direct and resource the National Science 
Foundation to set up a permanent research presence on Svalbard, 
the Norwegian island. Both the Russians and Chinese have robust 
presence on that island, the United States does not. Develop 
and resource a plan in conjunction with State, Native Alaskan 
corporations, allied private sector interests, and build out 
the foundation of an infrastructure that can support U.S. 
objectives for an ice-free Arctic.
    My written testimony contains details of such a strategy. 
And commit to ratification of the U.N. Convention of the Law of 
the Sea. UNCLOS is the governing structure for the world's 
oceans, including the Arctic Ocean. Accession to UNCLOS, among 
many other advantages, would allow the U.S. to file a claim for 
seabed resources north of Alaska for an area nearly the size of 
California.
    In closing, our country is dealing with a significant 
change in the world's climate, and nowhere is the climate 
changing faster than in the Arctic. As I stated in my TED Talk, 
the ice doesn't care who is in the White House or who controls 
the Congress, it just melts. We can either proactively adjust 
and shape our Arctic objectives to maximize the U.S. interests, 
or we can passively sit back and watch others grab the 
initiative.
    Thank you very much for your time and attention, I look 
forward to taking your questions.
    Mr. Hunter. Thank you, Admiral. We are now going to 
recognize Members for questions, starting with myself. I think 
the first thing I would like--I think it was Dr. Brigham was 
talking about 4.7 percent of the Arctic is charted to modern 
standards. If it weren't for Congressman Young here, it would 
be closer to zero percent, because on the Natural Resources 
Committee, he passed the Hydrographic Services Improvement Act 
in 1998, when I was still in college, which enabled us to get 
to 4.7 percent over zero. So again, thanks to the Dean of the 
House.
    I guess my first question, Admiral Ray, how would you align 
our Arctic strategy with what General Mattis has talked about 
the Arctic in our National Defense Strategy? That is a trick 
question. Think about it.
    Admiral Ray. Thanks for the question, Mr. Chairman. As I am 
pretty sure you are aware, we have a long-lasting relationship 
with the Navy in terms of working these issues. We got a fleet 
mix board that meets its--it is a longstanding, many years, and 
it has got an Arctic Working Group to work together on that.
    Our intelligence communities work together on assessing the 
Arctic situation. We work together in multiple exercises. I 
think the staff told me about 700 in the last couple years, 
tabletops and other things like that. So we have got these 
longstanding processes where we work with the Navy. And then 
this summer, the Alaskan Command is hosting a symposium in 2 
months, in August, where we will all sort of be--the military 
and other Federal agencies will fall in up in Alaska and we 
will work together to address specific strategic concerns and 
kind of assess the situation to see what we are doing.
    And, finally, as you know, we have got tremendous support 
from the Navy with regard to icebreaker recapitalization. Our 
integrated product team, if it weren't for the Navy, I mean, 
they are the experts in building unique types of ships. So they 
have been a real help for us the whole course of the way. So I 
would say that we are lockstep with the Navy when it comes to 
both tactical operation and strategic issues, sir.
    Mr. Hunter. Sir, I mean, we established a Joint Program 
Office out of this committee and the Armed Services Committee. 
The reason I asked the question, the Arctic isn't mentioned in 
the National Defense Strategy at all. So to all of you, General 
Mattis talked about everywhere on Earth basically, except for 
the Arctic. And it seems really myopic and shortsighted that we 
do this all the time as a Nation, and that is why we are 
sitting here trying to hurry up and build icebreakers that 
weren't in the game at all.
    I guess that was the point to the question. How can you 
formulate what the Coast Guard is going to do in the Arctic 
without a joint strategy from the Navy and the Coast Guard, 
which Mr. Garamendi and I have mandated now in the National 
Defense Authorization Act. You got Senator Sullivan is going to 
carry that, too. So that is going to--by September of this 
year, we are going to require both this committee and the Armed 
Services Committee, a Navy-Coast Guard joint plan on what the 
strategy is because right now, there is nothing written down.
    And we know, from being in the military, at least you and 
I, unless it is written down, especially at your rank, and it 
is documented 1 million times and put in a bunch of PowerPoint 
slides, it doesn't exist. So right now, no matter what you say, 
and there is a Joint Program Office for the acquisition side, 
what is the strategy side? No one has talked about that, 
because it is not in the NDS, so there is no way you even have 
to align the Coast Guard strategy with the National Defense 
Strategy because there is no National Defense Strategy for the 
Arctic. Does that make sense?
    You cannot align with the National Defense Strategy in the 
Arctic because there is no National Defense Strategy in the 
Arctic, which is a huge lapse in what the Office of the 
Secretary of Defense put out. We are going to fix that by 
asking you and the Navy to come back and tell us what your 
strategy is, if you have a joint strategy, does that help the 
Coast Guard? I mean, if you have a strategy from the Department 
of Defense that says, here are our goals in the Arctic, here is 
what we want to do over the next 30 years, here is our plan, I 
would think that that would inform the Coast Guard massively, 
and NOAA and everybody else here, on what kind of equipment you 
are going to have, the accessibility, what is going to be in 
the region, all those kind of things. That is my question.
    How do you know what the Coast Guard is supposed to do if 
there is no joint strategy between you and the other ocean 
Service?
    Admiral Ray. Well, sir, we have been up there for a while. 
And so we have assessed the situation over the last 150 years, 
and we have had four Commandants in a row that have talked 
about this fourth ocean that you talked about in your opening 
comments. And so, I think we have done a pretty decent job of 
assessing the situation, and we have got this longstanding 200-
year relationship with the Navy. So I certainly am not 
disagreeing with you, I will just say that we are not operating 
independently. And so we are ready to roll up our sleeves and 
work the Navy as the direction comes out, sir.
    Mr. Hunter. OK. I would just say, long term--the reason we 
are asking you to come back in 3 months is to present a 
strategy, because there isn't one. That's it. So we can build 
the ships, and we are doing that now, finally. The icebreakers 
are going to be built, there needs to be a strategy to go along 
with that. And if OSD is not going to do it, which they haven't 
done it, I would recommend that you do it. The Coast Guard 
should come up with your strategy. What is your strategy? 
Because the Navy doesn't want to be in the Arctic.
    Remember, oil right now is at 65 bucks a barrel. You can 
bet $1 million that as soon as it goes up to $80, $90, $100 a 
barrel, all the big oil companies are going to be back in the 
Arctic again. There is only one reason they are not in the 
Arctic, only one, because oil is cheap right now--cheap-ish. 
Once that changes, they are all going to be there again. And it 
is going to be a mad-dash rush to how do we support all this 
activity in the Arctic, because they are going to be there as 
soon as it goes up again. Boom, they are all going to be there. 
With the stuff that they have put down when oil went down under 
$100 again, they just left everything sitting there, and they 
are going to be out again. It would be great to have a strategy 
for what our plans are and how you are going to incorporate the 
icebreakers as a service before all that happens. And then it 
has got to be done within days as opposed to the time we have 
now and the luxury of time.
    With that, I thank you all for being here again. I yield to 
the ranking member.
    Mr. Garamendi. Mr. Chairman, I want to thank you and the 
Dean of the House for bringing an extraordinary panel before 
us, raising a critical issue. The language that is in the House 
version of the NDAA [National Defense Authorization Act] should 
give the Department of Defense a swift kick to deal with the 
Arctic Ocean. You are quite correct, Mr. Chairman, when you 
said that the Navy has no interest.
    Yesterday's meeting that Mr. Graves put together was 
shocking in that the Navy simply has abandoned the Arctic 
Ocean, other than submarines, no surface interest at all. And 
if I am wrong, I am ready to have the Navy come and tell me 
that I am wrong in my assessment of yesterday's meeting.
    I think my question is one that--I don't expect a response, 
but I would like it in writing. First of all, the Coast Guard 
will, with the passage of the NDAA, and I hope before the NDAA, 
work with the Navy on developing the answer to the requirement 
that there be a strategy. And I asked the Navy yesterday to 
proceed ahead of the law to get on with the question.
    So my issue really goes to the other witnesses here, and 
that is, each of you have made recommendations. I don't expect 
the Department of Defense, since they totally ignored the 
Arctic in the National Defense Strategy, to come up any time 
soon with a proposal, but each of you have made 
recommendations. When taken together, you have, in fact, 
developed at least a major part of an Arctic strategy.
    So I would ask each of you to put an estimate of the cost 
of your recommendations together with the recommendation. You 
can simply submit the recommendations and add another 
paragraph, another sentence. This strategy to map the coast 
requires X personnel, equipment, and the cost is about this 
amount. I think this committee is, and certainly under the 
chairman and his staff, and my staff, is ready to develop an 
Arctic strategy, since the whole of Government has ignored it. 
And I think we are ready to do that in the various 
opportunities we have in appropriations as well as in 
authorization. So if you would do that for us, it would then, I 
think, lead to at least a major part of it.
    The Coast Guard is doing much of that, specifically with 
the icebreakers, but there is more to it that than. So if the 
Coast Guard would also carry out putting numbers and personnel 
and equipment with each of the recommendations that have been 
put forth today, we will be along the way.
    With regard to the U.S. Navy, there are those of us that 
are on the Seapower and Projection Forces Subcommittee, two of 
which are sitting next to each other here, that I suspect will 
have conversations with the U.S. Navy about its withdrawal from 
the Arctic Ocean, other than submarines. So I am going to let 
it go at that. And so, if you would all provide us the 
information, that will be the foundation for an Arctic strategy 
that I think this committee will put together. I thank you. I 
yield back.
    Mr. Hunter. I thank the gentleman. I now recognize the 
former chairman of the full committee, a man who stands behind 
you over--in front of an un-iced Alaska in the background here 
that looks at us every day, the Dean of the House, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I want to thank the 
panel. We are all saying the same thing. I am pleased with the 
panel. No one is really saying anything contradictory of what 
should be done in the Arctic. As the only person that lives in 
the Arctic--by the way, I live above the Arctic Circle, there 
is no ice there in that picture, but I do, and we do have a 
changing climate. I think for the better. I have to say that. 
We have a new opportunity.
    I was just thinking, you know, a good thing about Captain 
Cook. This is not a new idea, I mean, he was trying to find a 
Northwest Passage, it took him 3 years and 10 days to get to 
the inlet into Anchorage. And to show you how things can 
happen, he thought he had found it, and he went down one arm of 
that inlet, and he got to the end of it and he said, turn it 
again. So he turned it around, and that is where he got 
Turnagain Arm. I want you to know--how do you like that for a 
story?
    But my interest is that we have got to have a plan, and may 
I thank all of you--if Congress writes a plan without your 
input, we are going to screw up. So we need to have--I would 
say, Mr. Chairman, one of the good things we could do, maybe we 
ought to have an Arctic czar, because every agency is willing 
to work with one another, but no one is really figuring out how 
to do it.
    And maybe we ought to have an Arctic czar because this is 
where the future is of the Nation, or the world, is above the 
Arctic Circle. That is where the mineral resources are, that is 
where the oil is, that is where the fish are going to be. That 
is where the action is going to be 100-200 years from now. And 
give China and Russia credit for that because they recognize 
it, we do not.
    And, Ms. Conley, I liked your statement because if we don't 
get to this and recognize it for the importance of it, we are 
going to end up with another Wrangel Island. If any of you 
don't know where Wrangel Island is, that belongs to the United 
States of America. But we didn't pay any attention to it and 
Russia settled it, now they have a huge settlement there. And I 
get people writing me letters, why don't we get our Wrangel 
Island back? Well, we would have to go to war to get it. But it 
was extremely valuable.
    So, Mr. Chairman, I like what I hear. I just think we ought 
to have a collusive group, and maybe come to the suggestion of 
us--and, Ms. McCammon, and would thank you for your statement, 
you and my Alaskan witnesses. Let's have a plan. Give us your 
plan how it could be done so we can make some pretty sound 
decisions when we have a chance to do that, because we are 
going to have to do it.
    I mentioned yesterday at our meeting that Mr. Garret Graves 
put on, the general public doesn't understand the Arctic yet. 
They are sort of out there, that is the Arctic. And we have to 
understand it until we can raise the attention of this. But we 
have to do it, otherwise the public--I go to Members on the 
floor, and I said, what about the resources in the Arctic? 
Where? How about the new shipping channels? What? Do you know 
any navigational aids because the other countries are going to 
use it. And what is going on up there, you know, how many 
things--they don't have any idea.
    So, Mr. Chairman, I think our challenge is to listen to the 
witnesses, and they are all agreeing. Let's see if we can put 
something together, with your information, and then I think the 
chairman ought to introduce, with the ranking member, a future 
piece of legislation that creates the Arctic--I call it 
symposium, but has one person in charge, and I know maybe 
someday when someone is not sitting on this committee, they 
might want to be the czar of the Arctic. I need a new job 
maybe, you never know.
    But I just--you know, I love what you are saying, and thank 
you. And let's just see, maybe you all are going to get 
together after this meeting, and maybe you ought to do that, 
Mr. Chairman, tell them to do it and come back to us and see 
what we can do. Thank you. Yield back. That was a statement, 
that wasn't----
    Mr. Hunter. We could have an Arctic czar that even sits on 
the Joint Chiefs, it would be called the Commandant of the 
Coast Guard. That would be a great Arctic czar.
    Mr. Lowenthal, you are recognized.
    Mr. Young. Chairman, just 1 second.
    Mr. Hunter. Yes, sir.
    Mr. Young. We talk about icebreakers. Icebreakers are great 
and I support icebreakers and I want icebreakers, but that is 
not all of it, it is the infrastructure. We have no ports up 
there. We don't have the communication. We did have quite a bit 
when they were looking for oil and they withdrew, but we don't 
have that anymore. We are sort of out in the middle of La La 
Land right now, and that is where our job is.
    Mr. Hunter. I thank the gentleman. Mr. Lowenthal, again, 
recognized.
    Dr. Lowenthal. Thank you, Mr. Chairman, and thank you to 
all the members of the panel for being here and educating us on 
the infrastructure and the needs that are definitely needed in 
the Arctic. This question is for Mr. Kennedy and Admiral Ray. 
You know, as you know, the National Ocean Policy includes 
important goals and policies to enhance maritime transportation 
and security in the Arctic. As part of the policy, the Coast 
Guard, NOAA, and other partners were asked to coordinate the 
oil spill prevention, the containment, and the response 
efforts, including the development of new tools, to improve our 
modeling and responses to these incidents.
    Can you fill us in on how this collaboration is working? 
How it is going on? And what progress you have made towards 
these goals?
    Admiral Ray. Sir, I will talk about the response side of 
it, the modeling obviously is in the expertise of NOAA. With 
regard to response, every summer when we go up on Arctic 
Shield, at least for the last several years, we send research 
and development projects to see what we can do to improve our 
capability to respond to oil spills and ice waters, waters on 
the edge of the ice pack, waters--in fact, it is different, a 
lot different than the Gulf of Mexico. And I will just be quite 
frank, we are not where we need to be yet when it comes to 
responding. We are still pushing it, we work with NOAA, and 
across the interagency to get the ideals that we go up and test 
every summer. But I don't--I don't think we are where we need 
to be yet when it comes to responding to a significant oil 
spill in the Arctic.
    Dr. Lowenthal. Thank you. Mr. Kennedy.
    Mr. Kennedy. I agree with Admiral Ray. We are working hard 
to try and do better. We have spills, drills. There was an oil 
spill technology workshop in March in Anchorage, looking at 
Arctic and Alaska technology and where we are and where we need 
to go. As you heard from the different panelists, that place is 
far, far away. And we have logistics issues, we have 
communication issues, and the science is not all there yet. 
Very clearly, it isn't there. And with the dramatic changes, it 
is pretty hard for us to keep up the research to stay on top of 
those changes and how they relate to responding to a spill and 
any other sort of hazardous issue. So we're not there. We are 
working on it. There is a lot of focused interest and 
attention, but I would not--we are not there yet.
    Dr. Lowenthal. I want to follow up, and this again is for 
Mr. Kennedy and Admiral Ray on these, where we are going in 
terms of the policies and where we are. You have indicated that 
we are really not there in implementing what we really need to 
do.
    So I would like to know how we are engaging all the 
stakeholders as we plan for this ocean future. And so I am 
wanting to know how NOAA and the Coast Guard are implementing 
the marine planning in the Arctic. What are the key data sets 
and the needs that you have identified that we need to ensure 
safety and coordination between the ocean stakeholders? Can you 
elaborate at all on that--what you are looking at and what we 
need to look at ourselves? I know we are not there yet, but 
maybe you can tell us a little bit more about--as we move 
towards increased development, how all the stakeholders are 
participating?
    Admiral Ray. Sir, we have got captains at the port. In 
Alaska, we have got one in Anchorage that actually covers all 
the way out to the western part of Alaska and up north. And we 
have got standing committees that include all the--by design, 
they include all the stakeholders from the local communities. 
And so, they convene on a regular basis and talk about the 
issues. As we go up north there, as I think you may recall from 
my opening statement, we engaged in about 40 different coastal 
villages in Alaska in the summer.
    Dr. Lowenthal. Uh-huh.
    Admiral Ray. So when we go there, we--kind of the way you 
interact with the folks up there is they like to say--you kind 
of talk about these issues, you bring them up, and it is really 
human interaction is how we work through some of these things 
when you are talking about responding in waters that they 
traditionally fished in and hunted in and done--so that is the 
primary tool that the Coast Guard uses. It is a similar 
arrangement that we used in Miami or L.A., it is just a 
different--and it is tailored to the nature of the stakeholders 
in the region.
    Mr. Kennedy. Sir, NOAA has regional coordinators in Alaska. 
Their primary responsibility beyond providing the Coast Guard 
and whoever else the data and information that we generate to 
support a response, their job is to try and reach out to all 
aspects of the communities that might be involved in response. 
So that includes down to and including, as Admiral Ray said, 
the indigenous folks. I think I mentioned in my testimony, we 
have actually gone out and done a training in some of the 
villages. But that also includes academics. The State of Alaska 
is a very, very strong partner, we interact with them on a 
regular basis, as well as the Coast Guard, I mentioned in my 
testimony, again, several other Federal agencies, Department of 
the Interior, BOEM [Bureau of Ocean Energy Management], in 
particular, I spent a lot of time working with them.
    And, so, that is--oh, industry, I want to make sure to 
include industry, because when something happens and you have 
got a response, industry is going to be kind of helping manage 
that, and you got to understand where they are coming from, you 
got to be familiar with who they are, how they think, and what 
they bring to the table. So all of that, in terms of 
integration.
    In terms of what information do we need that we don't have, 
you have heard from this panel: observing of all different 
kinds. So that is everything from all of the oceanographic data 
from currents to temperatures to, you name it, to the whole 
biological communities. As this change is occurring, there is 
dramatic change in where species are. And, again, we are having 
trouble keeping up with all of that, but it is absolutely 
essential for us to understand that. There is permafrost 
issues, there is sea ice, I could go on. But there are the 
three or four categories of data and information that we don't 
have enough of that we are working collaboratively with other 
partners to try and gain.
    Dr. Lowenthal. Thank you. And I yield back, Mr. Chair.
    Mr. Hunter. I thank the gentleman.
    Mr. Graves, you are recognized.
    Mr. Graves of Louisiana. Thank you very much.
    I appreciate all of you being here.
    Admiral Ray, I want to follow on the questions that I think 
the Chairman Young and Congressman Hunter asked, and 
Congressman Garamendi asked. I think you are seeing a theme 
here that there is strong concerns about lack of integration 
between the Coast Guard and the Navy.
    I fail to understand why we continue to have separate 
documents, separate strategies, all these people talking about 
playing together, but at the same time, we are missing 
opportunities for efficiency.
    To try to dissect or tease out the Navy mission as opposed 
to the Coast Guard and the Arctic is very difficult for me to 
understand. And I want to commend Congressman Hunter, the 
subcommittee chairman, for his work in the NDAA bill. I think 
you are aware of an amendment that he added that forces a joint 
strategy.
    But, quite frankly, that is not something that Congress 
should have to step in and do. That is something that is common 
sense, and I think there is a great bit of frustration on both 
sides of the aisle that that is not happening already. And I 
just wanted to get your feedback on that and help me--I guess, 
maybe give us some comfort and help us understand why we 
continue to see these silos.
    Admiral Ray. Thanks for the question, Congressman.
    I won't speak for the Navy. What I will tell you is that 
there is no air gap between the Navy and the Coast Guard from 
the top to the bottom. I mean, we just had staff talks a couple 
months ago--or it has actually been about 3 months ago with 
Admiral Zukunft to the CNO. And the Arctic and what we were 
doing there was part of our discussions.
    We work at my level and all the way down to the, you know, 
the deck play level. I concede, obviously, that we don't have a 
national strategic document that is authored by both. I think 
the last similar document was a 21st-century seapower document 
that is probably about 10 years old now that had to kind of 
prescribe that we would work together and develop Arctic 
policies and procedures or, you know, kind of strategies.
    So as I told the chairman, we are certainly, you know, 
willing to fall in and work on this process with the Navy. But 
I want to assure you that I don't--absent the strategy, which 
you all can see, there is no big air gap between the Coast 
Guard and the Navy. I mean, it was a conscious effort to 
transmit the icebreaking surface mission to the Coast Guard 
after World War II, and we have been doing that since the 
1940s.
    Mr. Graves of Louisiana. Admiral, what does Russia and 
China and Norway, what do all these other Arctic nations know 
that we don't in regard to the fact that they have 
exponentially more Arctic capabilities than the United States 
does?
    Admiral Ray. Well, I won't speak for a lot of the other 
countries. My assessment is that, for instance, with Russia, 
they have 60 percent of the Arctic coastline. I think it is 
over 50 percent of the Arctic coastline. And it is a 
significant part of their GDP, and Ms. Conley can attest to 
that.
    So if petrochemicals or petroleum products are the biggest 
part of the GDP of Russia, then the North Slope or their 
northern coast is the biggest part of that. So they have 
obvious economic interest, but what they are doing goes way 
beyond economic activity. We observe that and are aware of 
that.
    The other nations--you know, there are eight Arctic 
nations, and so each one of them has got a little different cut 
on this. Some of them are primarily fisheries, and they are 
trying to protect those stocks. That is more on the Atlantic 
side. We are not fishing north of Alaska right now except for 
subsistence. There is no commercial fishing.
    So each country has their own perspective, but I will tell 
you, they are collectively demonstrating an interest to the 
event that they can to being able to operate up there. And that 
is what we have been talking about for several years, we, the 
Coast Guard, that you have got to be able to operate up there. 
You know, virtual presence is absence, and so we need to be 
present there, and that is what we have been--with the help of 
this committee, we are the closest we have been in 40 years.
    Mr. Graves of Louisiana. Well, I certainly agree with that. 
But I think I would share the concern of virtually everyone up 
here about the lack of polar capacity and the implications that 
is going to, I think, continue to have on our Nation.
    I am going to violate my own advice. Dr. Brigham, I just 
want to--I don't know the answer to this question, but Dr. 
Akasofu, how is he doing? And don't answer that question----
    Mr. Brigham. I think he still comes into the office and 
does his science.
    Mr. Graves of Louisiana. Yeah, OK. All right. Well, in a 
previous life, I had the opportunity to work with him. An 
extraordinary amount of time we lost contact. Please, pass on 
my best to him. He was an amazing resource for us in regard to 
climate change science and Arctic ice coverage and other things 
and enjoyed working with him. So thank you.
    I yield back.
    Mr. Hunter. I thank the gentleman.
    Mr. Huffman is recognized.
    Mr. Huffman. I want to thank the chair and the witnesses 
for a very interesting conversation about policy and American 
leadership in the Arctic. And I totally understand the national 
security implications for why we need to have a greater and a 
safer presence in the Arctic.
    I am also hearing a lot of interest in safety for shipping. 
It makes perfect sense. But a lot of this has to do with 
mineral development, fossil fuel development, and other things 
that raise questions about environmental standards and 
environmental protection.
    And I am wondering, before we get too far into the massive 
costs of all of these things, if anyone is thinking about what 
American leadership looks like in the Arctic when it comes to 
protecting the unique natural resources of the Arctic and the 
ecological values.
    Is this just a rush to exploit things from the Arctic, or 
is American leadership also attempting to project our standards 
and environmental values into this conversation? And I would 
open that up, certainly, to any of the witnesses that want to 
speak to it, because I haven't heard much about that.
    Mr. Brigham. Yes, Congressman.
    The United States, through the Arctic Council, has been a 
leader in all things related to environmental protection and 
sustainable development. This Arctic Marine Shipping 
Assessment, which I mentioned in my testimony, is really an 
overview of--and a strategy for how to protect people and the 
environment.
    So I think we have been there. I think the State 
Department, through the Arctic Council, representing us there 
and all the agencies, including the Coast Guard, and at the 
Arctic Council, have been world leaders in environmental 
protection, marine safety, and this question of infrastructure 
that relates to all of that.
    Mr. Huffman. Anyone else want to add to that? Yeah.
    Ms. Conley. Congressman, I would also add, I think there 
are some exciting opportunities. You look at the five Arctic 
coastal States, plus five major fishery States joining together 
in placing a moratorium on fishing in the central Arctic, the 
high seas. That is a preemptive diplomatic effort to make sure 
the science is there before the fish arrive. And so I think 
that is a good example.
    We know there is going to be work to look at biodiversity 
beyond national jurisdiction. That is looking at the high seas 
area, again, to ensure that we have strong biodiversity. The 
Arctic is front and center at that conversation.
    We also have, even in the business community, the Arctic 
Economic Council which is very focused on making sure that any 
investor, any business practices in the Arctic have the highest 
standards. It takes extraordinary stewardship to make sure that 
any economic activity is done at the highest level, but this is 
something that we do have practice with, but we have to ensure 
it.
    So I think there is actually some very good news on that 
front, marine-protected areas, but it does require continued 
vigilance.
    Mr. Huffman. All right. I appreciate that very much.
    I want to, if I can, ask specifically about black carbon. 
And Mr. Kennedy, I know that the United States is trying to 
make some progress. The International Maritime Organization, it 
is my understanding, is moving fairly slowly on addressing 
emissions pollution, particularly black carbon.
    Current targets by the Arctic Council nations to reduce 
black carbon emissions, many people believe need to be 
strengthened, and we need a more active U.S. role in leading 
that change. So I would like to ask you if you think it is true 
that the Arctic is particularly sensitive to black carbon for 
maritime emissions and the implications of that.
    Mr. Kennedy. It is certainly true that black carbon is a 
contributing factor, and NOAA is not a leader in the discussion 
about black carbon. I can say what I just said because I have 
been in many conferences and sessions where EPA, for the most 
part, has led the discussion about black carbon and----
    Mr. Huffman. That is not very reassuring right now, but 
please continue.
    Mr. Kennedy. So I can't claim to be an expert, but, yes, 
indeed, it is an issue. Everybody from the Arctic Council to 
science ministerials have been discussing it, and it has been a 
little bit of a slog to----
    Mr. Huffman. Would you agree that without adequate 
international regulations that address these maritime 
emissions, rising Arctic maritime transportation because of 
this will actually accelerate the already alarming trends we 
see in the Arctic?
    Mr. Kennedy. I don't think I can be the one to make that 
statement, but I think, logically, if you have additional 
activities going on there, carbon is going to be an issue, and 
it is an issue.
    Mr. Huffman. Thank you.
    Mr. Hunter. I thank the gentleman.
    Mr. Garamendi is re-recognized.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. Titley, your work at Penn State covers a variety of 
issues, some of which you have spoken to. First of all, is 
there any doubt that the climate and the Arctic is warming and 
that there is going to be an opening of the sea channels?
    Admiral Titley. Thank you, sir, for the question.
    I think there is extremely high confidence the Arctic will 
continue to warm, and the only question on a seasonally ice-
free Arctic is not if, but when. Reasonable people can 
disagree.
    When I started the Navy's Task Force on Climate Change, the 
consensus was in the 2060s, 2050s and 2060s. I was telling the 
Navy probably the 2035 or so. I would still say 2035, which is 
coming up very soon. By the time we get to 2020, that is going 
to be next decade. So we have 15-ish years to prepare for when 
we have seasonally ice-free Arctic.
    Now, it is going to freeze up in the winter, probably for 
everybody's life in here and our children's life. But over 
time, by the time we get to the latter part of the 21st 
century, we will start seeing weeks and even months of ice-free 
conditions, and I think that is what the Russians and Chinese 
are----
    Mr. Garamendi. I wanted to get that on the record, because 
that is foundational for everything that we have been talking 
about here.
    Also you have spoken to Russia and to China. Why is China 
interested in the Arctic?
    Admiral Titley. I think China is interested--well, first, 
Heather Conley down at the other end of the table here is 
really the expert on this. But as I understand this, China is 
looking at this primarily from an economic perspective. If you 
look at their Belt and Road Initiative, this really encircles, 
actually encircles Eurasia. And the so-called ``Polar Silk 
Road'' is the northern component of that encirclement.
    So I think they see this as if you put China as the hub of 
the late 21st-century, early 22nd-century world, they want to 
ensure they have resources. They also look at their fossil fuel 
resources.
    I am sure you are aware that the Chinese are very concerned 
about the Strait of Malacca. They think the United States could 
interdict their supply of energy through the strait; whereas, 
if you are bringing it across the top of Russia, which is at 
least their friend for now, and through the Russian waters on 
the side of the Bering Strait, I believe if you are in Beijing, 
you see that as a more assured access along with land lines 
through Russia for energy.
    Mr. Garamendi. Earlier today, I was at a meeting in which 
it was stated that the critical importance of being on the key 
committees, China is imposing itself on the Arctic Council, 
and, as I understand it, seeking a position at the committee 
level, and, therefore, will be in a position to direct or to 
influence the decisions. Is that correct, Ms. Conley and Dr. 
Brigham? Jump in.
    Mr. Brigham. No, I think the eight Arctic States have 
control over the Arctic Council. There is no question about it. 
They have non-Arctic State observers, like China and India, 
Italy, 13 non-Arctic States. And so they observe, they 
participate, but minimally. It really is the eight Arctic 
States in the Arctic Council which is a consensus body in a 
governmental forum with nonbinding, generally, decisions.
    So it is a weaker body, but nonetheless, focused on 
environmental protection, sustainable issues. China has a voice 
with other non-Arctic States, but I would argue not an 
overwhelming voice there. But they are at the table.
    Mr. Garamendi. Mr. Kennedy, you jumped in, and Ms. Conley, 
you both kind of sat up in your chair when I raised that 
question.
    Ms. Conley. Thank you. Just on China's role in the Arctic 
Council, I think what we are seeing is a growing confidence 
since they became observers in 2013. They are managing their 
way through the working groups. It is their funding and their 
scientific presence and activity. They are opening new 
scientific research centers in northern Iceland, their presence 
in Greenland. They believe they have a valid role. Their 
environment is impacted by the changes in the climate, although 
there is some scientific dispute whether mid-latitude countries 
are impacted. So they think they have a science presence. And 
the funding of indigenous groups and elsewhere are building 
that credibility and that voice.
    The Arctic Council has an observers manual. They have to 
follow those procedures. But I would say, their funding, their 
presence, their visibility, not unlike that we have seen in 
Antarctica with their growing science presence, science is 
presence. Presence ensures that sovereignty.
    Just to follow up with Admiral Titley, we have had a 
longstanding--in fact, Lawson came with us--a track 2 dialogue 
with China's Arctic scholars for the last 3 years that looks at 
China's interest in the Arctic.
    I would absolutely say it is shipping, it is the diversity 
of those shipping routes, absolutely from the Straits of 
Malacca, but it shortens by up to 30 percent east/west transit 
for Chinese goods. It is absolutely an energy requirement, 
mineral resources, rare earth, which is why they are 
particularly interested in Greenland, potentially Iceland, and 
the mining capabilities, as well as the LNG and their 
participation in Yamal.
    The protein, the fishing stocks, which I think is an 
undervalued issue that Beijing is quite interested in, which is 
why they wanted that seat at the table to be part of that 5 
plus 5 dialogue that I mentioned to you.
    Tourism, believe it or not, you are going to continue to 
see a wave of Chinese tourism in the Arctic. We are already 
seeing that in Finland and elsewhere. Their commercial presence 
then allows their tourism presence to come.
    So it is going to be a comprehensive presence over time. 
They are investing the high-level diplomacy, the economic 
diplomacy, and then we know many of the commercial ventures 
that China produces has a PLA PLN component to it. We have to 
understand and research the strategic implications of what a 
greater Chinese infrastructure presence and science presence 
means to our interest.
    So, for instance, if China builds an air base or an 
airstrip, or airport very close to Thule Air Force Base in 
Greenland, does that have strategic implications for the United 
States and our missile defense radar system?
    Does a growing surface-to-air missile presence on Wrangel 
Island in Russia, does that impact our missile defense 
architecture at Fort Greely, Alaska? Those are the types of 
questions we have to really start asking. That is the strategic 
look ahead that has been missing, in my view, from all of our 
Arctic documents that we have produced over the last several 
years.
    Mr. Garamendi. I thought you were going to mention Djibouti 
rather than Iceland, but----
    Mr. Kennedy. I have nothing to add to that. That was a very 
comprehensive answer.
    Mr. Garamendi. Admiral.
    Admiral Titley. Yeah. I would only add to Ms. Conley's 
statement, in addition to the resources, I think another reason 
China is looking so hard at Greenland, at Iceland, Norway, they 
are looking for an eastern terminus for a transpolar route. We 
don't even think of a transpolar shipping route.
    We have--just like 9/11, we have a failure of imagination. 
We don't think about that ice-free--seasonal ice-free Arctic, 
or an ice-free Arctic with only--or an ice-covered Arctic but 
with first-year sea ice, but with ships that can transit 
unassisted through that sea ice.
    They are looking at how to connect the Pacific and the 
Atlantic over the top. And, you know, sometimes we laugh at how 
they do it. It is a little clumsy from time to time, but less 
and less each day. So this is not only a twofer, but multiple 
things: Everything that Ms. Conley talked about, plus how do 
they control, how do they have first say in the strategic 
Atlantic port for the Arctic for that over-the-top route.
    Mr. Garamendi. I think your answers to the question I raise 
make my point, is that China is a major player, and it is using 
its economic power and political power to influence the 
policies in the Arctic. I think that is underway.
    If I might, Mr. Chairman, our task is to make choices. We 
are in the process of choosing to spend $717 billion this year 
on the Department of Defense. If we took $1 billion of that, 
which is one-thirteenth thousandth of that money, $1 billion, 
and spent it on the Arctic, just did a quick calculation here, 
we would have $700 million a year available to build 
icebreakers. In other words, we could build the six that are 
said to be required over the next decade.
    We could have $50 million a year for shore facilities for 
the Coast Guard and science. You have $50 million a year for 
communications, $50 million for domain awareness, $50 million a 
year for mapping, $50 million for research, and another $50 
million for whatever else you want to do; $1 billion, of the 
$717 billion that we intend to spend on the Department of 
Defense this year. Food for thought. And that is why I asked 
each of you to put numbers and material and people, whatever, 
behind each of your recommendations, because our task is to 
make choices. And talking to our colleagues here, we may very 
well want to do an Arctic strategy piece of legislation.
    I yield back.
    Mr. Hunter. I thank the ranking member.
    This is probably the best panel we have had on the Arctic 
since I have been the chairman, which has been 6 years now. 
This is the best panel. Everybody always disagrees on stuff and 
that is fine, but I think you all agree on two things: The 
Arctic is opening rapidly, and it could be even faster than we 
think, and technology allows our competitors to move there 
faster than we might think. People always do what we--we have 
never been right about where the next war is, never. Never. We 
always prep for the wrong place, always, and that is just a 
fact of life. And I think the Arctic is one of those places.
    And I joke with my friends that we here in Congress are on 
the board of directors of America. We are, kind of. And the 
Navy right now is in its warfighting box, its warfighting 
bubble, if you will, with Korea. We are no longer locked in a 
massive land war in Iraq and Afghanistan, so there is money 
going to the Navy again for ships.
    And they are looking at Asia, and they are looking around 
the world, and they are in their war bubble. And that is fine. 
And the Arctic is not where they--they are not playing at war 
in the Arctic right now so it is not a priority. That is my 
opinion of why they are not involved.
    Mr. Young brought up a czar of the Arctic. We have a czar 
of the Arctic. Admiral Ray, it could be you, it could be 
Commandant Schultz, but it should be somebody--I mean, you are 
already here. You are already doing it. You are the ones that 
are going to have the Arctic strategy that we help you put 
together that you bring to us in September. Hopefully that will 
negate the need for anything--for us to do anything 
legislatively, because we shouldn't be doing that. But we need 
to make sure that you are.
    So you all agree on one thing: The Arctic is opening up 
very quickly; and two, we are slow in our ability to--we are 
slow right now in our planning for how to not just extort the 
Arctic for natural resources, but how to make sure everybody is 
going to up there, and being clean, driving clean, fishing 
well, what they are--I mean, we have the oversight over that 
around the world except for there, and that needs to be fixed.
    And the Coast Guard is doing it, Mr. Garamendi and I, Mr. 
Graves. And Don Young has been doing this for over 30 years, 
working on this one issue. So now that we are getting the 
boats, I think you need the strategy to go with the boats.
    And you are in charge, Admiral Ray. I mean, Admiral Schultz 
is the Arctic czar, as far as I am concerned, and we are going 
to get our information from you. And, hopefully, it is enough 
so that John and I can just sit here and not do anything and 
say, hey, that is a great strategy, let's implement it, as 
opposed to having to change it or create it ourselves.
    Mr. Garamendi. Just one question.
    Mr. Hunter. Sure.
    Mr. Garamendi. Is there anybody here from the U.S. Navy?
    Mr. Hunter. Admiral Titley.
    Admiral Titley. Retired Navy, which means I do not have to 
start everything with ``I support the President's budget.''
    Mr. Garamendi. Admiral, as good as you are, you don't count 
in answering my question.
    Admiral Titley. Not at all. But----
    Mr. Garamendi. My question was asked for a very, very 
specific reason, and there is no one in this room from the U.S. 
Navy.
    Mr. Hunter. So that is very telling. And my answer to that 
is, that that is fine, because with Congress' funding and with 
the Coast Guard's strategy and ability and know-how from being 
there, I think we have this down.
    And we are going to drag the Navy along screaming and 
kicking, but we are going to drag them and we are going to make 
sure, too, that they do--tow them along. We are going to make 
sure that they do the right thing, too, when it comes to the 
actual icebreaker itself, meaning--and this is a time for a 
different discussion, but now that we are getting the ships, we 
don't want to see LCS communication suites on the Coast Guard 
icebreaker. We want to make sure that the Navy gets involved 
where they are supposed to and stays away where they need to 
stay away when it comes to the acquisition.
    So with that, thank you all for being here, very 
informative discussion. And, finally, we are moving on this 
stuff and we are making a difference, and we are making changes 
because of all of you, and the few that actually came to the 
hearing today, which we appreciate.
    With that, the hearing is over.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                    
</pre></body></html>
